V-

, *- t'm

No.

IN THE

SUPREME COURT OF THE UNITED STATES

Adrian G. Rangel - PETITIONER
vs.
Steven P. Meyer et al - RESPONDENTS

PROOF OF SERVICE
I, Adrian G. Rangel, do swear or declare that on this date, October, j *7

2020, as

required by the Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO FILE IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIRARI on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first class postage prepaid, or by delivery to a third -party commercial carrier
for delivery within 3 calender days.

Page 22 of 23

c

(next page)

The names and addresses of those served are as follows^

STEVEN P. MEYER

MATTHEW D. BOULAC

do Natalie F. Weiss
Deputy Attorney General
Indiana Government Center
South 5th Floor
302 West Washington St.

do Natalie F. Weiss
Deputy Attorney General
Indiana Government Center
South 5th Floor
302 West Washington St.

Indianapolis, Indiana

Indianapolis, Indiana

46204-2770

46204-2770

I decl

VALERIE CHURCH
do Natalie F. Weiss
Deputy Attorney General
Indiana Government Center
South 5th Floor
302 West Washington St.
Indianapolis, Indiana
46204-2770

m^geimlty of perjury that the foregoing is true and correct.

75 2020
Executed on Oct.
Adrian G. Rangel, PRO SE,
POB 1191, Lake Zurich, IL 60047. 312-404-6920

Page 23 of 23

